U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Bernard Thomas v. United States of America,
S.Ct. No. 20-7189
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
11, 2020, and placed on the docket on February 22, 2021. The government’s response is due on
March 24, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 23, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7189
THOMAS, BERNARD
USA

PETER J. TAMAO
600 OLD COUNTRY ROAD
SUITE 328
GARDEN CITY, NY 11530

